rj
IN THE SUPREME COURT OF THE UNITED STATES
ROOSEVELT JOHNSON,
Petitioner,
v.

Case No.

STATE OF FLORIDA,
Respondent.

Petitioner hereby certifies that the following Petition for Writ of Certiorari complies with the
type-volume limit, typeface requirements, and type-style requirements' of Rule 33.1 and contains 2,570
words.

Petitioner:
Roosevelt Jonnson
DC# 390758
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Road
Crestview, Florida 32539-6708

1 Petitioner's petition was prepared using 'Open Office' (the only word program available), and the required type-style
Century' is not contained therein. Therefore, the petition has been prepared using 'Times New Roman.'

RECEIVED
JUN 2 4 2020
SUPRE^JoURT1^

